■>

Supreme Court, U.S.
FILED

No. 21-

S0IT2 6 2021
OFFICE OF THE CLERK

In the
Supreme Court of the United States

JACQUELYN BOUAZIZI
Petitioner,
s>'*

V.

HILLSBOROUGH COUNTY CIVIL SERVICE BOARD, and
HILLSBOROUGH COUNTY
Respondents.

On Petition for a Writ of Certiorari To
The United States Court of Appeals
For the Eleventh Circuit

PETITION FOR A WRIT OF CERTIORARI

Jacquelyn Bouazizi,
Petitioner Pro Se
3619 East Caracas Street Tampa, Florida 33610
Tel: (813) 205- 2687
E-Mail: momlIuv9@aol.com

Petitioner, Pro Se

Dated: August 26, 2021

received

AUG 3 1 2021

I ass&gjg&SS

1.

QUESTIONS PRESENTED

1.

Should the Doctrine of Equitable Tolling be expanded to include a situation in
which a pro se party previously represented by counsels, having received
substandard legal advice and representation, relying solely on the notion that
the hired counsels were competent and can therefore move client’s cause of
action involving employment discrimination litigation on the basis of gender,
age, retaliation, equal pay, FMLA claim, and race (against Respondents
Hillsborough County and the County Civil Service Board) believing on the
representation of previous counsels that after filing the Original Complaint,
Exhibit 4, Amended Complaint, Exhibit 5, Second Amended Complaint,
Exhibit 5-A, Third Amended Complaint, Exhibit 5B; hiring two attorneys who
have been practicing labor law and representing to the Petitioner that this is
their profession. Petitioner's lawyers Craig Berman, Erik Del E’toile, and Carl
R. Hayes enormously failed by failing to comprehend all that is needed in a
discrimination case, whose actions were convoluted and confusing to Judge
Robert Foster and Judge Virginia Hernandez Covington which resulted to both
Judges' failure to verify that Petitioner filed a FMLA Claim as opposed to the
alleged Disability Claim of the Petitioner which the latter did not have.

2.

Does failure of attorneys to include in the complaints what needed to be
included at the time it should have been, constitutes negligence entitling
Petitioner to avail of the application of the Doctrine of Equitable Tolling? Out
of filing five complaints and hiring three attorneys, yet Petitioner's attorneys
failed to include what needed to be included at the time it should have been
included by failing to satisfactorily plead Petitioner's cause of action.
Petitioner's attorney's failed to present valid claims, failed to include Equal
Pay claim and only included the same after the lapse of its statute of
limitations, failed to adduce a prima facie claim, failed to allege how the law
applies to the facts, failed to state a cause of action, failed to include
comparison with the comparators. Craig Berman filed the original complaint
on November 18, 2015 where he failed to amend the complaint as per Judge
Robert Foster’s order on two occasions, while attorney Erik Del E’toile filed the
two Amended Complaint on January 18, 2018 and Carl R. Hayes filed the
Second Amended Complaint on February 19, 2019 as well as the Third
Amended Complaint May 9, 2019.

3.

Should a pro se litigant be penalized for the misrepresentation, fraud, and
incompetence manifested by her previously hired attorneys, with the fraud
committed by Attorneys Todd and Zinober by adding a disability to Petitioner’s
EEOC charge to later get Petitioner’s complaints against Respondents Board
and County be dismissed with prejudice based on a fraudulent disability claim
that they added to Petitioner EEOC charge 511-2014-01711.

4.

Is the denial of a long-term competent employee of a well-deserved promotion
in favor of one who is relatively new and/or less qualified, following employee’s
-onthe part of the employer and whether the court erred in ruling otherwise,
having in regard the manifestation of the Civil Service Board that the
individual promoted is not or just not qualified. The Civil Service Office
Manager, Britanny Abella’s memo states that first Damian Tramel was not
qualified for the position, he was allowed to remain on the payroll in the same
position and hired him permanent, Exhibit 7, not having in regard that he has
a felony charge Exhibit 6-A, Doc. 1-2 page 131 to 132, thereby violating the
Civil Service Rule. Tramel lied on Hillsborough County Civil Service Board
Application For Employment page 2, Exhibit 6, when he Tramel checked “No”,
on the question “Have you ever pled guilty, been convicted of OR, pled nolo
contenders to any crime, Exhibit 6. Tramel was even promoted as Petitioner’s
supervisor and Clifford Amunsden named in the Third Amended Complaint
Exhibit 5-B, admitted that he did not manage contracts, in a memo from
Camille Blake, the County’s Equal Employment Opportunity Manager, Equal
Opportunity Administrator’s Office, Exhibit 8. The County refused to pay the
Petitioner contract manager’s pay while several inexperienced employees were
promoted over Petitioner to AO pay grade, 6 pay grades above Petitioner AK
pay grade for managing contracts, Exhibit 8-A.

11.

LIST OF PARTIES
The parties are listed in the caption. There are no additional parties joined in this
action.

111.

TABLEOF AUTHORITIES
1.

Hazel-Atlas Glass Co. v. Hatford-Empire Col., 433 U.S. 238, 248, 64 S.Ct. 997,
88 L. Ed. 1250

2.

Holland v. Florida. 560 U.S. 631, 130 S. Ct. 2549, 177 L. Ed.2d 130 (2010).

3.

Arias v. U.S. Att'y Gen., 482 F.3d 1281, 1284 (llth Cir. 2007)

4.

Jaen-Chavez v. U.S. Attorney General, 415 F. App'x 964, 967 (llth Cir. 2011)

5.

United States v. James Daniel Good Real Property. 510 U.S. 43, 48 (1993)

6.

Greenholtz v. Nebraska Penal Inmates, 442 U.S. 1, 12 (1979)

7.

Mathews v. Eldridge, 424 U.S. at 324

8.

Cafeteria Workers v. McElroy. 367 U.S. 886, 895 (1961)

9.

Mathews v. Eldridge, supra, at 343

10.

E. G., Ingraham v. Wright. 430 U.S. 651 (1977)

11.

Santosky v. Kramer, 455 U.S. 745, 774-76 (1982).

12.

McDonald v. Smith, 472 U.S. 479, 482-83 (1985)

13.

Pace vs. DiGuglielmo, 544 U.S. 408, 418, 125 S.Ct. 1807, 171 L.Ed.2d 669

14.

Battett v. Bullitt, 377 U.S. 360, 375, 85 S.Ct. 1316, 12 L.Ed 2d 377

15.

Holmberg v. Armbrecht, 327 U.S. 392, 396, 66 S.Ct. 582, 90 L. Ed. 743

r

IV.

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

1

LIST OF PARTIES..............

11

TABLE OF AUTHORITIES

111

TABLE OF CONTENTS

IV

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

,v

APPENDIX

vi

OPINIONS BELOW

1

STATEMENT OF JURISDICTION

2

PETITION FOR A WRIT OF CERTIORARI

3

STATEMENT OF THE CASE

4

A.
B.

Attorney's Misrepresentation and Fraudulent
Machinations................................................................................
Violations of the Fifth and First Amendment
of the United States Constitution..............................................

C.

8

9

The Middle District Court and the Eleventh Circuit Court
Abused its Discretion when it failed to Properly Review the
Record as a Result of Mishandling Mrs. Bouazizi's Submitted
Files in Support of the Appeal.....................................................

11

ERRORS OF THE LOWER COURT

11

ERRORS OF ATTORNEYS

18

REASONS FOR ALLOWANCE OF THE WRIT

22

CONCLUSION

23

PROOF OF SERVICE

24

CERTIFICATE OF COMPLIANCE

26

V.

'CONSTITUTIONAL'AND STATUTORY PROVISIONS

28 U.S.C. § 1257.

(a)
Final judgments or decrees rendered by the highest court
of a State in which a decision could be had, may be reviewed by
the Supreme Court by writ of certiorari where the validity of a
treaty or statute of the United States is drawn in question or
where the validity of a statute of any State is drawn in question
on the ground of its being repugnant to the Constitution, treaties,
or laws of the United States, or where any title, right, privilege,
or immunity is specially set up or claimed under the Constitution
or the treaties or statutes of, or any commission held or authority
exercised under, the United States.
(b)
For the purposes of this section, the term “highest court of
a State” includes the District of Columbia Court of Appeals.

42 U.S.C. § 1983.

Every person who, under color of any statute, ordinance,
regulation, custom, or usage, of any State or Territory or the
District of Columbia, subjects, or causes to be subjected, any
citizen of the United States or other person within the jurisdiction
thereof to the deprivation of any rights, privileges, or immunities
secured by the Constitution and laws, shall be liable to the party
injured in an action at law, suit in equity, or other proper
proceeding for redress, except that in any action brought against
a judicial officer for an act or omission taken in such officer’s
judicial capacity, injunctive relief shall not be granted unless a
declaratory decree was violated or declaratory relief was
unavailable. For the purposes of this section, any Act of Congress
applicable exclusively to the District of Columbia shall be
considered to be a statute of the District of Columbia.

Amendment I.

Congress shall make no law respecting an establishment of
religion or prohibiting the free exercise thereof! or abridging the
freedom of speech, or of the press! or the right of the people
peaceably to assemble, and to petition the government for a
redress of grievances.

Amendment V.

No person shall be held to answer for a capital, or otherwise
infamous crime, unless on a presentment or indictment of a grand
jury, except in cases arising in the land or naval forces, or in the
militia, when in actual service in time of war or public danger!
nor shall any person be subject for the same offense to be twice
put in jeopardy of life or limb! nor shall be compelled in any
criminal case to be a witness against himself, nor be deprived of

life, liberty, or property, without due process_ofJaw-;-nor-shnik
-P-H-v-a-te—pyppertyi^be faten for public use, without just
compensation.
Rule 13.1 U.S. Supreme Court
Unless otherwise provided by law, a petition for a writ of
certiorari to review a judgment in any case, civil or criminal,
entered by a state court of last resort or a United States court of
appeals (including the United States Court of Appeals for the
Armed Forces) is timely when it is filed with the Clerk of this
Court within 90 days after entry of the judgment. A petition for a
writ of certiorari seeking review of a judgment of a lower state
court that is subject to discretionary review by the state court of
last resort is timely when it is filed with the Clerk within 90 days
after entry of the order denying discretionary review.
Rule 13.3 U.S. Supreme Court
The time to file a petition for a writ of certiorari runs from the
date of entry of the judgment or order sought to be reviewed, and
not from the issuance date of the mandate (or its equivalent under
local practice). But if a petition for rehearing is timely filed in the
lower court by any party, or if the lower court appropriately
entertains an untimely petition for rehearing or sua sponte
considers rehearing, the time to file the petition for a writ of
certiorari for all parties (whether or not they requested rehearing
or joined in the petition for rehearing) runs from the date of the
denial of rehearing or, if rehearing is granted, the subsequent
entry of judgment.

VI.

APPENDIX

I.

Order of the United States Court of Appeals for the Eleventh Circuit
Entered January 29, 2021, D.C. Docket No. 8U9-cv-00657-VMC-TGW
by Judges JORDAN, NEWSOM, AND GRANT
Exhibit 1

II.

Orders of the United States District Court for the Middle District of
Florida by Judge Covington, Doc. 43, Doc. 50, Doc. 68, Doc. 69, Doc.71,
Exhibit 2
and Doc. 82

III.

Order of the State Court Submitted by Peter Zinober

IV.

Attorney Craig Berman Prepared Complaint and Demand for Jury
Exhibit 4
Trial

V.

Attorney Del E’toile filed two Amended Complaints, December 15,
2017, Doc. 1_2, page 38 to page 44, page ID48 with the Second
Amended Complaint filed January 3, 2018, Doc. 1-2, page 45 to 51,
page ID 55 to 61, Exhibit 5. Attorney Carl Hayes Second Amended
Complaint, Exhibit 5_A and Third Amended Complaint...Exhibit 5'B

VI.

Damien Tramel lied on Hillsborough County Civil Service Board
Application for Employment page 2, when Tramel checked “No”, on the
question “Have you ever pled guilty, been convicted of OR, pled nolo
contenders to any crime? Exhibit 6, Felony Charge
Exhibit 6-A

VII.

Memorandum stating that Mr. Tramel is not qualified for the position
from the Civil Service Board
Exhibit 7

VIII.

Memo from Camille Blake...

see Exhibit 22

Exhibit 3

Exhibit 8

County’s refusal to pay Petitioner while several inexperienced
employees were promoted to AO pay grade, 6 pay grades above
Petitioner AK pay grade for managing contracts
Exhibit 8-A
IX.

Petitioner EEOC Charge 511-2014-01711

X.

Defendant Hillsborough County’s Motion For Partial Summary
Judgment And Motion To Set Case For Trial On The Remaining Issues
Doc. 1'2, page 77 to 84, page ID 87 to 94
Exhibit 10

Exhibit 9

XI.

Defendant Hillsborough Countv CivilJSeawiee-BoardVMoflon To
-Disffiiss'TheV'tmended Complaint And Accompanying Memorandum Of
Law, Doc. 1*2, page 61 to 70, page ID 71 to 80
Exhibit 11

XII.

Transcript of the July 23, 2018 Hearing

XIII.

Emails from Del E’toile stating that he will argue Hammer v.
Hillsborough County at the July 23, 2018 hearing, that the County and
the Board are different entities
Exhibit 13

XIV.

Petitioner’s Motion For Extension Of Time to request Transcript Doc.
44
Exhibit 14

XV.

Petitioner Brief.

Exhibit 15

XVI.

Petitioner Petition for Rehearing

Exhibit 16

XVII.

Emails from Attorney Craig Berman

Exhibit 17

XVIII.

Hammer v. Hillsborough County, 927 F. Supp. 1540 (M.D. Fla. 1996)
Doc. 1'2, page 116 to 123, Page ID 126 to 133
Exhibit 18

XIX.

Email correspondence between Petitioner and Mr. Carl R. Hayes
...........................................................................................................Exhibit 19

XX.

Copy of the Altered Motion to Amend Notice of Appeal February 4,
2020
Exhibit 20

XXI.

Petitioner Stamped Notice of Appeal dated February 3, 2020, Doc. 83
...........................................................................................................Exhibit 21

Exhibit 12

Petitioner receipt paid February 3, 2020, filing fee for Notice of Appeal
dated February 3, 2020, in the amount of $505.00 that Middle District
Court alleged Petitioner did not pay
Exhibit 21-A
Petitioner Credit Card statement fling fee paid in the amount of
$505.00 to FLMDC transaction February 3, 2020
Exhibit 21-B
XXII.

Emails from Attorney Antonio Poulos

Exhibit 22

XXIII.

Petitioner noticed pertinent information on Middle District-Court----dnenrnentsrtmnsmitted-to Appeals Court Doc. 84, pages 1 of 32, page
ID 1140 to 1171
Exhibit 23

XXIV.

On page 32, page ID 1171, of the docket sheets, Exhibit 23, show that
Petitioner filed her Notice of Appeal February 3, 2020 as Doc. 83, fee
not paid, see Exhibits 21-A and 21B
Exhibit 24

XXV.

On pages 2 and 3, page ID 1141 and 1142, of Doc. 84, transmitted to
Appeals Court, it shows Petitioner Notice Of Appeal at the top filed
February 4, 2020, as Doc. 84, with the same date stamp as the Notice
of Appeal Petitioner filed February 3, 2020, and the Certificate of
Service is dated February 3, 2020
Exhibit 25

XXVI.

On the Middle District Court Docket Sheet (2) printed from PACER at
different times it show a Notice of Appeal as Doc. 85, on page 5/5, was
filed February 4, 2020
Exhibit 26

XXVII.

On the Middle District Court Docket Sheet (3) printed from PACER at
different times it show an Amended Notice Of Appeal filed February 4,
2020, as Doc. 85
Exhibit 27

XXVIII.

Docket Sheet for the Eleventh Circuit Court of Appeals... Exhibit 28

XXIX.

Equal Employment Opportunity Commission EEOC - Complaint
Processing Procedure
Exhibit 29

XXX.

Fraudulent - Order Granting Hillsborough County Civil Service
Board’s Motion to Dismiss the Amended Complaint with
Prejudice
Exhibit 30

XXXI.

Rule 60(b)

Exhibit 31

XXXII.

CIP Petitioner filed February 18, 2020

Exhibit 32

XXXIII.

CIP which someone altered and wrote on the letter (mailed February
24, 2020), and mailed the exact CIP to the 11th Circuit Court that
Petitioner filed February 18, 2020, that the 11th Circuit Court alleged
there was a deficiency on the date February 19, 2020, on 11th Circuit
Court Docket Sheet Exhibit 42. Petitioner did not receive a letter from
the court dated February 19, 2020, alleging that there was a deficiency
in the CIP filed February 18, 2020
Exhibit 33

XXXIV.

Letter dated February 11, 2021, from the Eleventh Circuit Court_o£
itioner an extension until March 19, 2021 to mail
her Petition for Rehearing
Exhibit 34

XXXV.

Motion To Review Court File and Motion For Leave To File An
Amended Petition
Exhibit 35

XXXVI.

Date stamped Notice Of Appeal Exhibit 36 mailed March 19, 2021,
priority mail receipt Exhibit 36-A that the Appeals court stated “No
Action Taken” in their letter March 25, 2021
Exhibit 36-B
Petitioner’s Amended Petition For Rehearing

Exhibit 36-C

XXXVII.

Motion for Relief from Judgment under Rule 60, Doc. 81..Exhibit 37

XXXVIII.

Copy of the envelope the 11th circuit court questioned in its decision
1/29/21, Exhibit 38 in reference to the date in which Order Doc. 69 was
signed, Exhibit 1, when Petitioner filed her Notice of Appeal
Exhibit 21

XXXIX.

Gretchen Lehman resubmitted the fraudulent - Order Granting
Hillsborough County Civil Service Board’s Motion to Dismiss the
Amended Complaint with Prejudice
Exhibit 39

XXXX.

Family Medical Leave Act FMLA,

Exhibit 40

XLI.

Correspondence dated April 9, 2021

Exhibit 41

XLII.

Correspondence dated April 8, 2021

Exhibit 42

XLIII.

Correspondence received from the Court dated April 19, 2021, stating a
copy of the Judgment is hereby issued as a mandate of the Court. The
Court’s Opinion was previously provided on the date of
issuance
Exhibit 43

XLIV.

Correspondence received from the Court dated May 5, 2021, stating
that the case is closed
Exhibit 44

OPINION BELOW
On January 29, 2021, the Court of Appeals affirmed the ruling against
Petitioner Bouazizi issued by Judge Virginia Covington of the U.S. District Court
Middle District of Florida regarding Petitioner’s Section 1983 Equal Pay Act and Title
VII claims against Respondents Hillsborough County and Civil Service Board. The
Court rejected Petitioner’s contention that the “Doctrine of Equitable Tolling” be
made applicable allowing her claims to proceed since Petitioner obtained incompetent
legal service, misrepresentation, and fraudulent machinations from counsel.
Equitable tolling focuses on Petitioners’ excusable ignorance regarding limitations
period and the lack of prejudice to Respondents. Petitioner acted with reasonably
prudent regard for his/her rights and serves to ameliorate harsh results that
sometimes flow from a strict, literal construction and application of time limits
contained in statutes and rules." The Court denied Petitioner’s contention that her
legal actions were based on her reliance on her attorneys’ competence and cannot be
expected as a lay person, to understand Rules of Procedure involved in bringing a
claim forward, resulting in the deprivation of the benefits due to Petitioner who
suffered gender, age, race, retaliation, equal pay and FMLA claim discrimination.
This practice should not be countenanced especially when Respondents are the
County and the Board to which candor and fairness is expected.
Petitioner learned that disability claim was added to her EEOC charge by
opposing attorneys Stephen Todd and Peter Zinober in agreement with Petitioner’s
attorney Erik Del E’toile without her, nor the EEOC representative’s permission.
Petitioner was unaware of its impermissibility and that only Petitioner can make
changes by amending her EEOC charge 511-2014-01711, Exhibit 9, Doc. 1-2, page
75to 76, page ID 85 to 86, or by filing a new complaint before conclusion/dismissal in
November 19, 2014.

1

STATEMENT OF JURISDICTION
The Eleventh Circuit Court of Appeals affirmed the rulings of the U.S. District
Court on January 29, 2021 dismissing Petitioner’s Section 1983 Equal Pay Act and
Title VII claims. The Court rejected the “Doctrine of Equitable Tolling” to be made
applicable allowing Petitioner’s discrimination claim based on gender, age, race,
retaliation and deprivation of equal pay to proceed amounting to denial of benefits
under the FMLA. Petitioner invokes this Court’s jurisdiction under 28 U.S.C. § 1257,
for having timely filed this petition for a writ of certiorari within 150 days of the Court
of Appeals judgement, denial of discretionary review or order denying a timely
petition for rehearing which on this case is the 9th of April 2021, pursuant to ORDER
LIST: 589 U.S. of the U.S. Supreme Court, see Rules 13.1 and 13.3.

2

PETITION FOR A WRIT OF CERTIORARI

Petitioner Jacquelyn Bouazizi in her action against Hillsborough County and
Hillsborough County Civil Service Board, respectfully petitions this court for a grant
of a Writ of Certiorari to review the judgement of the Eleventh Circuit Court of
Appeals.'

3

STATEMENT OF THE CASE

This Petition arises from the January 29, 2021 Order of the Eleventh Circuit
Court (“Court of Appeals”), Exhibit 1, not recommended for publication. Petitioner’s
appeal was based on whether the State Court erred in dismissing Petitioner’s Section
1983 Equal Pay Act and Title VII claims for being time-barred and failure to exhaust
administrative remedies. It involves the question of whether the “Doctrine of
Equitable Tolling” applies, allowing the claim to proceed since Petitioner obtained
incompetent legal service and misrepresentation from attorneys who endeavored
fraudulent machinations to have Petitioner’s case dismissed with prejudice by failing
to timely file the needed court documents. There is misrepresentation and fraud from
opposing attorneys Todd and Zinober, adding a disability claim to Petitioner’s EEOC
charge, Exhibit 9, although it clearly show that Petitioner only filed a FMLA claim,
Transcript Doc. 49-1, page 24, Exhibit 12, questioning the Court that the “disability
box” was not marked, thereafter proceeded to add the disability claim. Todd and
Zinober thereafter alleged Petitioner’s complaints were already time-barred after the
4-year statute of limitations had lapsed. This fraudulent machinations were
orchestrated to have Petitioner’s complaints dismissed with prejudice after alleging
Petitioner’s knowledge of the injury before retiring in 2014 and seeking treatment in
2015. These were accomplished without documentation from Petitioner nor her
treating physician, but the Court ruled Petitioner had permanent injury, Orders Doc.
43 and 50 Exhibit 2.
Petitioner filed a Third Amended Complaint, Exhibit 5’B, alleging
Respondents violated 42 U.S.C. § 1983, the Equal Pay Act, and the Equal Protection
Clause in the U.S. District Court which dismissed her claims as time-barred after the
4-year statute of limitation passed on the disability claim after counsel erroneously
claimed Petitioner sought treatment in 2015 following retirement in 2014 without
proof from a treating physician. Both equal pay and permanent disability claim were
declared time-barred, Exhibit 2, Order Doc. 43 and 50. Hayes filed the Third
Amended Complaint, Exhibit 5-B, alleging equal pay clause and permanent disability
claim although he knew of prior dismissal. Petitioner relied on Mr. Hayes’ advice
that filing of an equal pay claim would be the only remedj^ to get the case back in
court. Hayes incorporated an equal pay claim despite knowledge that it was fatal to
Petitioner’s cause, resulting to the dismissal of the Second Amended Complaint
Exhibit 5-A. Prior to both filings, Mr. Hayes failed to include all of Petitioner’s claims
filed with the EEOC. Hayes’ advice was not in the best interest of Petitioner as it
constituted fraud which turned out to be detrimental to her cause.
The U.S. District Court erred in dismissing Petitioner’s claims, denying her
First and Second Motion For Relief From Judgment Doc. 63 and 81. Petitioner
contends that equitable tolling be applied in furtherance of fairness and equity, that
her claims should be allowed to proceed, since Petitioner’s actions/inactions were from
her reliance on perceived expertise and competence of her attorneys, see emaiJs with
4

Del E’toile, Exhibit 13 emails with Hayes Exhibit 19, with Petitioner advising the
filing of the^e.qnaLpav-daj-mT-&ee-5’G7~Exhifait~5::A~aiT(l~5T3rThinking both will bring
Petitioner’s best interests forward. Another pertinent question is whether
Petitioner’s complaints against Respondents may be dismissed with prejudice for the
alleged non-existing permanent injury fraudulently added by counsel. The court
failed to acknowledge that Petitioner filed an FMLA claim on her EEOC charge where
the “disability box” was never marked.
The Due Process Clause of the Fifth Amendment prohibits the deprivation of
any person of property without "due process of law”. Individuals whose due process
rights are at stake are entitled to "notice and an opportunity to be heard," United
States v. James Daniel Good Real Property, 510 U.S. 43, 48 (1993). This case hinges
not only on violations of Due Process, but also on Stare Decisis according to precedent.
The Court of Appeals abused its discretion in adjudicating this case, resulting to the
deprivation of Petitioner’s right to be heard without adherence to reason, fairness,
and equity. In the Middle District Court, documents were exchanged between
attorneys without transparency or Petitioner’s full knowledge of its consent.
The Middle District Court dismissed Petitioner’s complaints with prejudice,
partly based on the Equal Pay claim that Hayes filed despite knowledge that the
statute of limitations had passed, together with the fraudulent disability claim that
attorneys Todd, Zinober and Del E’toile added at the July 23, 2018 hearing in State
Court to favor Respondents. The Court failed to realize that an FMLA claim was
instead filed which does not time-bar. Attorneys Todd and Zinober mislead Judge
Foster when they filed documents prior to the hearing, Todd, Doc. 1'2, pages 77 to 84,
page ID 87 to 94, (on page 82, Page ID 92, Exhibit 10, filed and signed May 15, 2018)
and Zinober Doc.1-2, pages 61 to 70, Page ID 71 to 80, (on page 68 page ID 78), Exhibit
11, filed and signed May 10, 2018, both categorically alleging Petitioner did not file
any disability claim with the EEOC nor alleged any disability claim with FHRC,
Transcript Doc. 49‘1, of the July 23, 2018 hearing, Exhibit 12, they first alleged that
Petitioner filed a FMLA claim, then added the disability claim. Petitioner had no
knowledge that attorneys added a disability claim, and relied on her attorneys
thinking it was the FMLA claim being referred to in reference to the back FMLA pay
and not a disability claim. Attorneys Todd and Zinober with Del E’toile agreeing,
fraudulently added the ADA Disability claim to the EEOC charge. Petitioner had
good faith belief that the attorneys knew or should have known that only Petitioner
can amend her EEOC charge by filing an amended complaint or a new EEOC charge.
Todd and Zinober knew more than 3 years had passed after the November 19, 2014
EEOC charge’s conclusion/dismissal.
The Middle District Court’s Orders were based on the disability claim that Todd,
Zinober, and Del E’toile added without Petitioner’s instruction. The Court failed to
recognize common law fraud, and that FMLA claims does not time-bar. The court
entered Orders, Doc. 43, and 50 Exhibit 2, ruling that Petitioner’s permanent
disability was alleged in the absence of her physician’s medical certification proving
5

Petitioner sought medical treatment and care for said disability, fraudulentlv_addecL
bv all attorneys—w-ho-faiied-^to—raise~~PetitToner Hied an FMLA claim to favor
Respondents. Mr. Hayes emails, Exhibit 19, Doc’s. 13\A, to 13-J, shows he
confederated and conspired with County’s attorneys, Todd, Zinober and Lehman.
Petitioner filed multiple Motions for Relief from Judgment and
Reconsideration to remedy the fraudulent machinations by the attorneys.
Unfortunately, all were denied by the District Court ruling the “case has been closed
and shall remain closed for being time-barred”. The Court of Appeals affirmed this
decision alleging Petitioner failed to show abuse of discretion by the lower court.
Petitioner disagrees and will demonstrate why this ruling was incorrectly applied,
violates the First and Fifth Amendments, and Stare Decisis.
THE COURT OF APPEALS ERRED IN UPHOLDING THE LOWER
I.
COURTS’ DISMISSAL OF PETITIONER’S CLAIMS AS TIME-BARRED.
EQUITABLE TOLLING SHOULD BE APPLIED, ALLOWING THE CLAIM TO
PROCEED BASED ON PRECEDENT ESTABLISHED BY THE U.S. SUPREME
COURT AND THE ELEVENTH CIRCUIT’S OWN.
The decision of the Court of Appeals states, Petitioner filed an EEOC
discrimination complaint however, no EEOC administrative complaint was filed.
Petitioner relied on attorneys’ advice, with fear that the same will again fall into deaf
ears, as the Commission did, with all her previous EEOC complaints, see email from
Attorney Antonio Poulos, Exhibit 22. Petitioner’s email with Mr. Hayes, and Del
E’toile, Exhibit 19 and 13 shows that she was under the misapprehension that
counsel is an expert and competent to move her cause forward with her best interests
at hand since Petitioner’s cause arose from unfair and discriminatory dealings by the
Respondents predicated on gender, age, race, retaliation equal pay, and availing of
the FMLA.
The Court of Appeals erred in contending Petitioner filed her notice of appeal
February 4, 2020. Petitioner believes someone altered Petitioner’s Notice of Appeal
and squeezed in line 5, entered incorrect dates of orders and changed the second page
of the Certificate of Service showing the date and to whom the Motion to Amended
Notice of Appeal, Doc 85, Exhibit 20 was served. Petitioner filed her Notice of Appeal
on February 3, 2020 , Doc. 83, Exhibit 21, paying the $505.00 filing fee that same
day, Receipt Exhibit 21-A, Petitioner Credit Card Statement in the amount of
$505.00, transaction February 3, 2020 to FLMDC Exhibit 21-B.
Petitioner diligently pursued the issue with what she believed was timely done,
relying on her attorneys. When Petitioner started litigating her case pro se, it cannot
be said she was no longer as diligent. Less can be expected from a mere lay person,
lacking training, education, and understanding of what the Rule of Procedures
entails. The Court has to take judicial notice that pro se litigants litigate their claims
for not being able to afford private counsel. This is the ill effect of previously paying
good money in hiring more than three attorneys believing that Petitioner has hired
expert and competent attorneys, sadly, it wasn’t the case. Hence, a little extra
6

consideration should be afforded to Petitioner in conformity with the truism that
“Those who have less in life should-ha-yp-morn -i n-in
Petitioner’s emails with her previous attorneys show she has diligently and
consistently pursued her case, see Emails with attorneys, Del E’toile, Hayes, and
Craig Berman, Exhibit 19, 13 and 17. Petitioner’s reliance on perceived competency
of attorneys ultimately failed her, causing her claims’ dismissal with prejudice.
Petitioner contends that, only when a lawyer can bring together technical and
performance skills to achieve a satisfactory work product or service which can
reasonably meet client’s expectations that one can be said to be competent. Petitioner
was let down by her attorneys for failing to comply with the timeliness requirement
of the Court and instead pursued fraudulent machinations detrimental to Petitioner.
The State Court and U.S. District Court erred in dismissing her Section 1983,
the Equal Pay Act and Title VII claims as being time-barred for having been filed in
excess of 4 and 3 years respectively. This statute of limitations is subject to equitable
tolling with the factors considered by a court in deciding as described in the case laws
set out below;1 A "petitioner” is "entitled to equitable tolling" ifhe shows "(l) that he
has been pursuing his rights diligently, and (2) that some extraordinary
circumstances stood in his way" and prevented timely filing. Pace vs. DiGuglielmo,
544 U.S. 408, 418, 125 S.Ct. 1807, 171 L.Ed.2d 669. Courts must exercise [their]
equity powers...on a case-by-case basis, "Battett v. Bullitt, 377 U.S. 360, 375, 85 S.Ct.
1316, 12 L.Ed2d 377avoiding "mechanicalrules, "Holmberg v. Armbrecht, 327 U.S.
392, 396, 66S.Ct. 582, 90L. Ed. 743in order to relieve hardship... arising from a hard
and fast adherence" to more absolute legal rules, Hazel-Atlas Glass Co. v. HatfordEmpire Col., 433 U.S. 238, 248, 64 S.Ct. 997, 88 L. Ed. 1250. The court recognizes
cases that equity courts can and do draw upon decisions made in other similar cases
for guidance, exercisingjudgment in light ofprecedent, but with awareness ofthe fact
that specific circumstances, often hard to predict, could warrant special treatment in
an appropriate case.
A plaintiffis “entitled to equitable tolling only if[s]he shows (l) that [sjhe has
been pursuing her rights diligently, and some extraordinary circumstances stood in
[her] way and prevented timely filing’’. Holland v. Florida. 560 U.S. 631, 130 S. Ct.
2549, 177 L. Ed.2d 130 (2010). Equitable tolling is appropriate since Petitioner’s
actions or her inactions, was a result of her reliance on her perception that her
attorneys are experts, competent, and acting on her best interest.
II.

THE COURT OF APPEALS ERRED IN DENYING PETITIONER’S
REVIEW DE NOVO.

The Eleventh Circuit ruled that it does not review abuse-of discretion claims
"merely couched in constitutional language" or constitutional claims that are not
colorable. The case of Arias v. U.S. Att'v Gen.. 482 F.3d 1281, 1284 (llth Cir. 2007),
provides that "For a constitutional claim to be colorable, the alleged violation need
1 The petitioner cites the additional case law under the “Reasons for Allowance of the Writ” section.
7

not be substantial, but the claim must have some possible validity. "Id. at 1284 n. 2
(guotationjnailkS-Qmitted) Snnl^MmA2havov-\^FS—Aftn-rnmrCm)P7ralr~4T6~F~App,:x
964, 967 (l 1th Cir. 2011). Petitioner’s contends that it’s clear by virtue of the Circuit’s
own precedent that that it is bounden with an obligation to have the case be reviewed
de novo as Petitioner has a prima facie case against the Respondents.
III.

CAN A PRO SE LITIGANT BE PENALIZED FOR THE
MISREPRESENTATION AND INCOMPETENCY OF ATTORNEYS.

No. Rule 4-1.1 of the Florida Bar addresses a lawyer’s duty of competence who
is obligated to provide competent representation to a client. Competent
representation requires the legal knowledge, skill, thoroughness, and preparation
reasonably necessary of the representation. Petitioner contends that Mr. Hayes, Del
E’toile and Berman failed to provide these identified standards to the Petitioner.
IV.

DOES THE DENIAL OF A LONG-TERM COMPETENT EMPLOYEE
OF A WELL-DESERVED PROMOTION IN FAVOR OF ONE WHO IS
RELATIVELY NEW AND/OR LESS QUALIFIED, JUSTIFIES
DISCRIMINATION/PREFERENCE WITH REGARD TO GENDER,
AGE, RACE, RETALIATION, EQUAL PAY AND AVAILING OF THE
FMLA, ETC.

No. The Florida Civil Human Rights Act makes it illegal for an employer to
discriminate on the basis of race, color, religion, sex, national origin, age, retaliation,
FMLA claim and handicap among others.
A.

Attorneys Misrepresentation

The negligence of attorneys failing to timely file court documents, adding the
equal pay clause when it should have not been included, allowing it to prescribe and
failing to recognize Petitioner filed an FMLA claim with the EEOC rather than a ADA
disability claim, caused this case to be decided in favor of Respondents. The Court
failed to recognize the fraudulent machinations by attorneys through confederating
and conspiring with each other, to throw Petitioner’s complaints against
Respondents, see Petitioner’s Brief Exhibit 15 and Petition for Rehearing Exhibit 16.
Petitioner’s original complaint was denied and the case was litigated under 28
U.S.C. § 1983. Petitioner’s Brief to the Court of Appeals argued that due to the
significant errors made by her attorneys, she should have been eligible for equitable
tolling. The Court of Appeals disagreed stating that ‘‘The first argument Petitioner
raises before us is that the district court erred in ruling that her third amended
complaint was time -barred in the first place. She argues that the district court should
have equitably tolled she did not file a disability claim she filed FMLA claims with
the EEOC. The 4-year statutes of limitations does not apply to FMLA claims as it’s
not time-barred. Petitioner contends that the “negligent acts”, fraud and
misrepresentations by Respondents and Petitioner’s attorneys constituted
“extraordinary circumstances” after a disability claim was added without Petitioner’s
8

consensus nor being filed with the EEOC and investigated by an EEOC
representative.-------------------- .---------------------------------------- -----------------The Complaints were dismissed with prejudice and Petitioner denies filing any
disability claim with the EEOC, instead she filed an FMLA claim with Order Doc. 43
and 50 entered without proof of disability from Petitioner or her attending physician,
providing information whether she sought treatment, and when treatment
commenced as Petitioner was not receiving any treatment from any doctor for any
injury. These claims are based on fraud of a disability which Petitioner never had nor
included on her EEOC charge.
The decision from the Eleventh Circuit Court of Appeals held that a
“petitioner” is “entitled to equitable tolling” only if he shows “(l) that he has been
pursuing his rights diligently, and (2) that some extraordinary circumstance stood in
his way” and prevented timely filing. Pace, 544 U.S., at 418, 125 S.Ct. 1807 (emphasis
deleted). In this case, the “extraordinary circumstances” at issue involve an attorney's
failure to satisfy professional standards ofcare on the part ofthe Petitioner’s counsels
and fraudulent machinations on the part of the opposing counsel. The Court of
Appeals held that, where that is so, even attorney conduct that is “grossly negligent”
can never warrant tolling absent “bad faith, dishonesty, divided loyalty, mental
impairment or so forth on the lawyer's part. ”539 F.3d, at 1339. But in our view, the
Court ofAppeals' standard is too rigid. Holland v. Florida, 560 U.S. 631, 649 (2010).
The issue here is one where the Circuit Court contradicts the U.S. Supreme
Court in deciding who gets equitable tolling in their case. Petitioner meets the
requirements needed for entitlement of equitable tolling. Petitioner acknowledges the
well-established principle that ignorance of the law is not a standard for tolling in a
section 1983 case, but what we have here is not Petitioner’s ignorance of the law, but
her reliance upon the competence of her attorneys. The attorneys’ mishandling of the
case qualifies Petitioner for equitable tolling standard as it cannot be logically
reasoned out, that as a lay person, Petitioner is expected to be knowledgeable of the
Rules of Procedure and its intricacies.
The Holland case involves the equitable tolling of a non-jurisdictional case; a
2254 petition, however the same rules apply to a jurisdictional appeal. The Court of
Appeals ruled Petitioner showed no abuse of discretion by the District Court, but the
holdings of this Court show differently. Stare Decisis which is the legal principle of
determining points in litigation according to precedent should have been applied by
the Court of Appeals and the District Court in deciding the claims. The doctrine was
not applied and as a result, violated Petitioner’s Fifth Amendment’s Due Process
Clause, and the First Amendment’s right to redress the government of grievances.
Petitioner’s 60(b) motion was proper and should have been heard according with
established judicial precedent.
B.

Violations of the Fifth and First Amendment

9

Due process of law is a flexible constitutional principle_r eg ulr-mg—u non­
governmental actionsa^-a-i-\ang-w]th~the~situafions to which it applies. As the Court
previously has recognized’ "not all situations calling for procedural safeguards call
for the same kind of procedure." Morrissey v. Brewer, supra, at 481. See also
Greenholtz v. Nebraska Penal fmnates, 442 US. 1, 12 (1979); Mathews v. Eldridge,
424 U.S. at 324/ Cafeteria Workers v. McElroy, 367 U.S. 886, 895 (1961). The
adequacy of a scheme of procedural protections cannot be determined merely by the
application of general principles unrelated to the peculiarities of the case. Petitioner’s
circumstances are peculiar since she solely relied in her perceived competence of her
attorneys, leading to the deprivation of her Constitutional safeguards sanctioned by
the Fifth and First Amendment.
Given this flexibility, it is obvious that a proper due process inquiry cannot be
made by focusing upon one narrow provision of the challenged statutory scheme. Such
a focus threatens to overlook factors which may introduce constitutionally adequate
protections into a particular government action. Courts must examine all procedural
protections offered and must assess the cumulative effect of such safeguards. Courts
must consider "the fairness and reliability of the existing procedures” before holding
that the Constitution requires more. Mathews v. Eldridge, supra, at 343. Only
through such a broad inquiry may courts determine whether a challenged
governmental action satisfies the due process requirement of "fundamental fairness."
tn some instances, the Court has even looked to nonprocedural restraints on official
action in determining whether the deprivation of a protected interest was affected
without due process of law. E. G., Ingraham v. Wright, 430 U.S. 651 (1977). See:
Santosky v. Kramer, 455 U.S. 745, 774-76 (1982).
The First Amendment guarantees "the right of the people ... to petition the
Government for a redress of grievances." The right to petition is cut from the same
cloth as the other guarantees of that Amendment and is an assurance ofa particular
freedom ofexpression. In United States v. Cruikshank, 92 U.S. 542 (1876), the Court
declared that this right is implicit in "ftjhe very idea of government, republican in
form. "Id., at 552. And James Madison made clear in the congressional debate on the
proposed amendment that people "may communicate their will” through direct
petitions to the legislature and government officials2.
The historical roots of the Equal Protection Clause long antedate the
Constitution. In 1689, the Bill ofRights exacted of William and Mary stated•' ”[I]t is
the Right of the Subjects to petition the King. " 1 Win. Mary, Sess. 2, ch. 2. This idea
reappeared in the Colonies when the Stamp Act Congress ofl 765 included a right to
petition the King and Parliament in its Declaration ofRights and Grievances. See 1
B. Schwartz, The Bill of Rights—A Documentary History 198 (1971). Likewise, the
Declarations of Rights enacted by many state conventions contained a right to

2 1 Annals of Cong. 738(1789)
10

petition for redress of grievances. See, e. g., Pennsylvania Declaration of Rights.
(1776). SeeifdcDonald-v-T-Smrthrr4f2-U~S~4797~4S2r813'(lfJS5).
_
C.

The Middle District Court, and the Eleventh Circuit Court Abused its
Discretion by Failing to Properly Review the Record of the Case and
Mishandling Petitioner’s Files Submitted in Support thereof.

The Middle District Court erred and caused irreparable damage and domino
effect against Petitioner by falsely alleging that prior to her case transfer to its
jurisdiction, there was no hearing. A hearing in State Court was conducted on July
23, 2018, see Transcript 49-1, Exhibit 12. The Court failed to mail a copy of the
documents transmitted to the Court of Appeals to Petitioner. The Middle District
Court granted a Motion For Extension Of Time, Exhibit 14, Doc. 44, for attorney
Hayes to request the Transcript of the July 23, 2018 hearing, by an endorsed Order
Doc. 45 that Pacer won’t allow Petitioner to Print to attach. The Court’s transmittal
sheet Doc. 84, page 1 of 32, page ID 1140 to 1171, Exhibit 23, to the Court Of Appeals
stated Petitioner failed to pay the filing fee, see receipt amount ing to $505.00 Exhibit
21-A, using Petitioner’s credit card, stating “Payment for the Notice Of Appeal”
February 3, 2020, Exhibit 21-B, copy of credit card statement showing payment to
the FLMDC.
Since both the District and Circuit Court denied Petitioner’s complaints,
amendments, and subsequent Rule 60(b) motion, has clearly deprived Petitioner of
her First Amendment right to redress the County and the Board. This sets an
unfavorable precedent and paves the way for more such violations of Due Process and
redress rights by other courts both state and federal. It will absolutely result in a
fundamental miscarriage of justice if permitted to stand.
ERRORS OF THE LOWER COURT
Errors of the State Court
1.

Before the State Court hearing, Petitioner never filed a disability claim.
It was only added by attorneys Todd and Zinober during the July 23,
2018 hearing with attorney Del E’toile failing to oppose the contention
and alleging that FMLA claim is proper. The State Court failed to verify
the addendum with EEOC Charge 511-2014-01711 Exhibit 9.

2.

The State Court granted Respondent's Motion to Dismiss Petitioner's
Amended Complaints on jurisdictional grounds based on fraud. This was
a grave error pursuant to Hammer v. Hillsborough County, 927 F. Supp.
1540 (M.D. Fla. 1996), Exhibit 18, Doc. 1-2, page 116 to 123, confirming
that the County and the Board are not separate entities, as Zinober
contends otherwise, Transcript Doc. 49'1, Exhibit 12. The court failed
to recognize common law fraud when the attorneys incorporated a
disability claim without consensus from the Petitioner or from the
EEOC representative, EEOC Complaint Procedure, Exhibit 29. The
Civil Service Board Complaint should have not been dismissed for
11

reason that it is a “separate entity” from the County with Mr. Del EToile____________ faihng-^)—^ject-ron—~thc~al'legation made by Zinober causing the
Fraudulent Order Exhibit 3 granting the Board’s Motion to Dismiss the
Amended Complaint with Prejudice, Zinober submitted for Judge
Foster’s signature who stated “as to the Board that’s dismissed” which
Gretchen Lehman resubmitted to the Middle District Court. The Board’s
complaint was dismissed not with prejudice, Transcript Exhibit 12, page
18, line 10.
Errors of the Middle District Court
1.

It is an error on the part of the Court in dismissing Petitioner's Section
1983 claim as time-barred, having been filed after 4 years following
cessation of employment where Petitioner allegedly sought medical
treatment in 2015 after she retired in 2014 for the fraudulently added
disability claim at the July 23, 2018 hearing. Petitioner’s EEOC Charge
clearly shows she filed a FMLA claim and the court failed to verify the
charge and the Order was entered without documentation from
Petitioner’s physician confirming the permanent disability. It is likewise
an error for the Court to dismiss the Equal Pay Act claim as time-barred
as it was filed in excess of 3 years. The Court failed to consider that
Petitioner is pro se who has undergone circumstances beyond her control
resulting from her reliance on her attorneys. Petitioner is one to whom
the Court can find application of "Equitable Tolling" in the interests of
fairness and equity.

2.

It is an error to dismiss Petitioner’s claims with prejudice and denying
the Motion to Vacate Judgment or Order, Rule 60(b), Exhibit 31. Rules
of Procedure may be set aside by the courts in furtherance of its mandate
to ensure that the ends of justice is secured for the protection of the
oppressed.

3.

Judge Covington’s denial of Petitioner's Motion for Relief from
Judgment under Rule 60(b), Exhibit 2, Doc. 82 on December 27, 2019 is
an error for the Court. Petitioner being a lay person cannot be logically
expected to be knowledgeable, and much more comprehend adherence
to the otherwise stringent Rules of Procedure. Being pro se without any
legal background, the court shall make its rules flexible for these
technical Rules of Procedures were not designed to sanction or punish
non-adherence but in furtherance of equity and fair-play.

4.

The January 13, 2020 denial of Petitioner's Motion for Reconsideration
is an error as Judge Covington failed to recognized that Petitioner is
litigating pro se who was previously provided with incompetent service
by her attorneys, justifying "Equitable Tolling" to find application.

12

5.

Judge Covington’s resolution of Petitioner's MotionjFoi^-Cla-ri-fie-a-t-ion_daied—J^u-auT5^r2d7T2f)2t) was erroneous for failing to consider that
Petitioner is pro se, adjudicating that Petitioner “has no pending claims
before the court that she can litigate and that the case is closed and shall
remain closed.”

6.

The denial of the Second Motion for Reconsideration for lack of merit
and being frivolous, stating further that the “Petitioner must refrain
from filing motions for relief from judgment or motions for
reconsiderations” is error on the part of Judge Covington. Petitioner is
entitled for any equitable relief sanctioned by law. The court likewise
erred in ruling Petitioner’s Motion for Relief from Judgment Doc. 81,
Exhibit 37, as frivolous and bereft of merit Order Doc. 82 Exhibit 2, as
the same was filed duly supported by evidentiary documents, see
Petitioner’s Brief and Petition for Rehearing.

7.

The Court erred when it dismissed Petitioner's Motion for Relief from
Judgment under Rule 60(b), Exhibit 37.

8.

Petitioner noticed in the Middle District Court documents Doc. 84,
transmitted to Appeals court that all 32 pages show it was filed
February 4, 2020, page ID 1140 to 1171, Exhibit 23, On page 32, page
ID 1171 of the docket sheets show that Petitioner filed her Notice Of
Appeal February 3, 2020 as Doc. 83, fee not paid. Petitioner receipt
Exhibit 21-A, Petitioner Credit Card Statement showing February 3,
2020 payment to the FLMDC Exhibits 2TB. Petitioner date stamped
Notice of Appeal filed February 3, 2020, Exhibit 21.
On Middle District Court Docket sheet [2] printed from PACER Exhibit
26, it show Doc. 85 as a Notice Of Appeal filed February 4, 2020, entered
February 5, 2020, that the USCA Appeal Fees were paid February 10,
2020, see Exhibit 21-A and 2TB.
There is an altered Motion to Amend Notice of Appeal as someone
altered Petitioner’s Notice of Appeal and squeezed in line five with the
incorrect dates of orders, changed the Certificate of Service date to
February 4, 2020, changed who the document was emailed to, and filed
it on February 4, 2020 as a second document Doc. 85, as shown on docket
sheet [2] as a Notice Of Appeal, Exhibit 26. Again, there is no Notice of
Appeal identified as Document number 85, as shown on docket sheet (2).
On Docket sheet [3] printed from PACER, Exhibit 27, show that an
Amended Notice of Appeal was filed February 4, 2020, as Doc. 85,
entered February 5, 2020, and that the fees were paid in the amount of

13

$505. Receipt number TPA059879, re 85. Notice Oilappeal—filed—hv----J-aequeiynddouu/aA^TtKCj entered.: 02/10/2020.
9.

Petitioner receipt number TPA059879, Exhibit 21-A, for payment of the
filing fee dated February 3, 2020 is the same receipt number allegedly
paid February 10, 2020. Petitioner believes someone wanted to ensure
that it appears Petitioner filed her Notice of Appeal late on February 4,
2020, with the filing fee unpaid February 3, 2020.
The court has alleged three named documents with the Document
number 85, a Notice of Appeal filed February 4, 2020 entered February
5, 2020, Motion To Amend Notice Of Appeal, filed February 4, 2020, and
an Amended Notice Of Appeal filed February 4, 2020. The date stamped
altered Motion To Amend Notice Of Appeal does not show on the last
page of Exhibit 23, page 32, page ID 1171, the docket sheet transmitted
to appeals court; it does not show on docket sheet (2) Exhibit 26, or
docket sheet (3) Exhibit 27, as Doc. 85.
The Middle District Court erred by alleging when Petitioner filed her
Notice of Appeal, on February 3, 2020, page 1 of 32, page ID 1140, that
the corresponding fee of $505.00, was not paid Exhibit 21-A, and that no
hearing from which a transcript can be made although a hearing was
held July 23, 2018. This is a material error as the Court questioned in
its decision when Order Doc. 69 was signed, on December 27, 2019 which
must have been set in the interoffice mail as it was after Christmas
holiday. The postal envelope was stamp December 30, 2019, Exhibit 38.
January 1, 2020 was a holiday and the document was received by
Petitioner January 2, 2020, on Sunday the Federal Clerks Office is
closed. See attached invoice showing that $505.00 was paid to payee
"FLMD CLERK US DISTRICT CT" dated February 3, 2020, Exhibit 21A, using Petitioner's credit card Exhibit 21-B. This is a material
question on the January 29, 2021 decision of the Court of Appeals which
alleged Petitioner didn’t pay the $505.00 court fees when she filed her
Notice of Appeal on February 4, 2020, although it was filed February 3,
2020.

Errors of the Eleventh Circuit Court of Appeals
1.

While the Court of Appeals correctly cited the grounds entitling for
equitable tolling, it failed to account that Petitioner was prevented a
timely filing because of her reliance on her perceived expertise and
competency of her attorneys Berman, Del E’toile, and Hayes. Petitioner
cannot be faulted as in the ordinary course of life, any lay person will
rely on his/her attorneys’ expertise and competence.

14

2.

The Court of Appeals made an error in ruling_Eetxt]X)uer-has-not-shoWTT~
■thatrt;he-di'strn:l..c(j ur fab used its discretion. Petitioner contends that the
application of “Equitable Tolling” is discretionary on the court. When
the circumstances of the litigant warrants its application, the court has
a bounden duty to apply it. Petitioner’s incurred delay is directly
attributable on her reliance on her attorneys, thinking they had her best
interest.

3.

The Court of Appeals erred in ruling that "newly discovered evidence "is
the theory which is a legal argument and cannot be raised under Rule
60(b)(2)Exhibit 1. Both Orders were dismissed based on a fraudulent
disability claim alleging Petitioner had permanent disability injury and
she sought treatment in 2015 after retiring in 2014. To reiterate,
Petitioner has relied on her attorneys’ perceived expertise and
competence. If Petitioner could amend her EEOC complaint in order to
rectify the fraudulent machinations of attorneys Todd and Zinober, she
could have done it. Petitioner contends that while FMLA cannot be
raised under Rule 60, however fraud resulting to the adding of a
disability claim by counsel can be raised under Rule 60(b). Petitioner's
research made her realized the legal argument should have been
included to qualify it as newly discovered evidence, at least in
Petitioner's perspective.

4.

The Court of Appeals erred in ruling Petitioner’s claims against
attorneys were merely conclusory failing to show clear and convincing
evidence. Supreme Court opined in Colorado v. New Mexico, 467 U.S.
310 (1984), "clear and convincing" means that the evidence is highly and
substantially more likely to be true than untrue/ the fact finder must be
convinced that the contention is highly probable. Petitioner contends
previous counsel failed to comply with timeliness requirement in filing
her claim and the County attorneys filed a disability claim on
Petitioner's behalf on July 23, 2018 without consultation from Petitioner
or the EEOC, later proving to be fatal on Petitioner's claims and
tantamount to fraud. Petitioner reiterates that she’s the only person to
amend her EEOC charge as provided by the complaint processing
procedure stating a Complainant may amend a pending complaint
before the conclusion/dismissal of the EEOC charge, Exhibit 29, EEOC
procedures, page 3. Attorneys Todd and Zinober cannot amend the same
without Petitioner’s consensus. Furthermore, Todd and Zinober added
the disability claim more than 3 years after its dismissal on November
19, 2014 which constituted fraud, only to later use to have Petitioner’s
complaints against the Respondents dismissed with prejudice, Order
Doc. 43 and 50, Exhibit 2.

5.

The Court of Appeals erred in ruling, Petitioner's claim against counsel
fail from the start as even if they made misrepresentations, they are not
15

"opposing party". Attorneys in Florida are_tQ-Gon4n€t—tteir~profession~
'aecar dingytrrthe - e tlTic a I rules of the Florida Bar. Misrepresentation to a
client to whom an attorney has duty to exercise good faith, fairness and
candor, is a violation of these tenets.
6.

The Court of Appeals erred in ruling Petitioner failed to timely file her
CIP as shown on docket sheet (4), Exhibit 28. Petitioner timely filed her
CIP on March 18, 2020 Exhibit 32, and wishes the court to exercise
diligence to ensure parties are afforded timely relief. The second CIP
Exhibit 33, enumerated all interested parties. The court alleged they
mailed Petitioner a letter dated February 19, 2020 which Petitioner
never received, only to have someone write on the letter mailed on
February 24, 2020 the exact CIP alleging Petitioner’s submission had a
deficiency, Exhibit 32 see Court of Appeals Docket sheet, Exhibit 28, at
February 19, 2020.

7.

The Court of Appeals erred in its January 29, 2021 Order, Exhibit 1
alleging Petitioner failed to include for review Doc. 10-3, filed March 25,
2019, page 2 and 3 page ID 762 and 763. The order was included in the
documents and was filed after Doc. 41 as Doc. 42 in volume 2. Petitioner
failed to file a separate copy of the order as Zinober filed the fraudulent
order which was resubmitted to the court by attorney Lehman.

8.

The Court of Appeals erred in dismissing the Petition for Rehearing with
Petitioner receiving correspondence from the Court dated
February 11, 2021, advising that Petition for Rehearing's last day of
filing is March 19, 2021, Exhibit 34. Petitioner mailed the Petition
March 18, 2021, Exhibit 16 Petitioner Mailed the date stamped Notice
of Appeal "March 19, 2021" (Friday) Exhibit 36, by priority mail, receipt
Exhibit 36-A, with the Court scheduled to receive the same by Monday,
March 22, 2021. The stamped Notice of Appeal dated February 3, 2020
shows its filing date, however the Court questioned it by stating it was
filed February 4, 2020 in its January 29, 2021 decision. Again, the filing
was timely done within the allowed extension until March 19, 2020
Exhibit 34, priority mail receipt.

9.

The Court of Appeals erred when it failed to recognize that the added
ADA disability claim by Todd, Zinober with Petitioner’s attorney Del
E’toile agreeing to the fraudulent machinations was designed to throw
Petitioner’s claims. This was accomplished by fraudulently adding to
Petitioner’s EEOC charge at the July 23, 2018 hearing although
knowledgeable that Petitioner filed an FMLA claim. Attorneys Todd and
Zinober’s both filed documents to the court prior to the hearing, stating
that Petitioner has never filed a disability claim with the EEOC, Todd
Doc.1-2, page 77 to 84, page ID 87 to 94, signed May 15, 2018 Exhibit
10, and Zinober Doc.1-2, page 61 to 70, page ID 71 to 80, signed May 10,
16

2018 Exhibit 11, with the neglect of Petitioner’s attorne\:s_constit.utingfraucL--------- -------------------------------10.

The Court of Appeals failed to rule that Petitioner attorneys Berman
and Hayes failure to timely respond to two motions constituted fraud.

11.

The Court of Appeals erred in its January 29, 2021 decision when it
alleged Petitioner filed her Notice of Appeal February 4, 2020, as
opposed to February 3, 2020 when the Notice of Appeal was filed and fee
paid for $505.00. Petitioner mailed a copy of the stamped dated Notice
of Appeal on the last day of extension to file the Petition for Rehearing
being Friday, March 19, 2020, with the court receiving it Monday, March
22, 2020, to be included in the Petition for Rehearing as proof when
Petitioner filed the Notice of Appeal. The court erred when it denied that
the date stamped Notice of Appeal was mailed on March 19, 2020
resulting to the denial of the Petition for Rehearing although timely
received as shown on the date stamped (March 19, 2021) showing it was
filed February 3, 2020, mailed March 19, 2020, Exhibit 36, priority mail
receipt, confirming when Notice of Appeal was mailed.

12.

The Court erred in denying the receipt of a timely filed Notice of Appeal
dated February 3, 2020 with corresponding filing fee as alleged in its
January 29, 2021 decision. Petitioner received the Court’s letter dated
March 25, 2021 stating that “NO ACTION WILL BE TAKEN”, Exhibit
36'B. A motion to correct or amend Petition for Rehearing is needed to
file a corrected or amended rehearing.” Petitioner in error thought she
had to file an Amended Petition For Rehearing, Exhibit 36_C not a
Motion To Amend. Petitioner called Appeals Court and was advised she
had to file a Motion To Amend Notice Of Appeal.

13.

The Court’s actions as alleged in Number 8, eventually caused
Petitioner’s Petition for Rehearing failure to move forward.

14.

The Court failed to move forward with the Petition for Rehearing with
the Notice of Appeal containing information as to when Petitioner filed
the same, although it was timely mailed on March 19, 2021, the last day
of extension as indicated on the priority mail receipt, Exhibit 36~A.

15.

The Court erred when it advised Petitioner to file Motion to Correct or
Amend Petition for Rehearing the next day, April 9, 2021 Exhibit 41
which was then later denied by the court after failing to allow Petitioner
to respond to the April 8th letter Exhibit 42. Petitioner filed a Motion for
Review Courts File because the Court received her documents timely
with Motion for Leave to File an Amended Petition, Exhibit 35, April 27,
2021. The court should have moved forward with the Petition for
Rehearing which was timely filed on March 18, 2021. Petitioner received
correspondence from the court advising judgment is issued as mandate
17

of the court and court's opinion was Dreyio-usfv-previti-ed~on April 19,
—2021—ExhibitMS-amFthat the case is closed on May 5, 2021 Exhibit 44.
ERRORS OF ATTORNEYS
Errors of Petitioner's Attorneys
1.

Attorneys Berman, Del E’toile and Hayes failed to provide services they
were hired for and Petitioner relied on her perceived expertise and
competence of her attorneys. Petitioner should not be faulted for giving
her utmost reliance on her attorneys being an ordinary lay person who
trusted her attorneys to comprehend the intricate Rules of Procedure,
thereby making it inexcusable for them to file a claim after the lapse of
the statute of limitations. Hayes committed fraud on the court by
confederating and conspiring to throw Petitioner’s complaints in favor
of Respondents County and Board.

2.

Attorneys Todd and Zinober with agreement from Petitioner’s attorney
Del E’toile committed fraud on the Court when they included disability
claim without the consensus of Petitioner or permission of EEOC
representative at the July 23, 2018 hearing. Only Petitioner is
empowered to make changes on her EEOC charge either by amendment
or a new charge, the action was fatal to Petitioner’s claims. Todd and
Zinober knew that more than 3 years had passed after the
conclusion/dismissal of Petitioner’s EEOC charge last November 19,
2014.

3.

Upon Petitioner's learning the term "time'tolled", she realized Zinober
mislead the State Court when he alleged "the Court lacks subject matter
jurisdiction", that the Civil Service Board is a separate entity from the
County, to ensure Petitioner’s complaints be dismissed with prejudice.
Although the court dismissed the Boards Complaint without prejudice
Exhibit 3. Hammer v. Hillsborough County, 927 F. Supp. 1540 (M.D. Fla
1996) Exhibit 18, Doc. 1-2 page 116 to 123, page ID 126 to 133, proves
that the court had jurisdiction and that the County and the Board are
not separate entities.

4.

Attorneys Todd, Zinober and Lehman maliciously stated that Petitioner
"knew or had reason to know" that whatever injury she had experienced
occurred while she was employed with the County, to get Petitioner’s
complaints against the County and the Board be dismissed with
prejudice, Exhibit 2, Doc. 43 and 50. The petitioner was not disabled nor
did she have any injury to know when such occurred while employed by
Respondent as Petitioner was out on FMLA.

5.

Attorney Berman directly violated the court’s order by failing to amend
Petitioner's complaint twice as directed by Judge Foster, leaving the
claims susceptible for dismissal. He also failed to respond to
18

Respondent's Motion to Dismiss, leaving -it—unanswered.—for"
,appinxnn-a-teiy;_10 rmonths, causing unnecessary delay in litigating
Petitioner's claims, see Exhibit 17.
6.

Del E’toile failed to argue Petitioner filed a FMLA claim and not an ADA
disability claim and which does not time-barred. Del E’toile
misrepresented to Petitioner that although the argument is not included
in the pleading, he will extensively argue it in court, but failed to argue
Hammer v. Hillsborough County, Exhibit 18. When Petitioner tried to
raise the issue in court, he raised his hand gesturing for Petitioner not
to say anything regarding Respondent Board and jurisdiction. Email
correspondence shows Mr. Del E’toile’s admission for failure to object to
the court’s manifestation that the Board and County are not separate
entities, Exhibit 13 as Zinober contended during the July 23, 2018
hearing to get Petitioner’s complaints dismissed, Transcript Doc. 49-1
Exhibit 12.

7.

Del E’toile failed to argue Petitioner did not file an ADA disability claim
but only an FMLA claim which was not imposed by the EEOC. This
fraudulently added disability claim caused Petitioner’s complaints
against the Respondents be declared as time-barred and thereafter
dismissed with prejudice.

8.

Attorney Hayes erroneously prepared the Second and Third Amended
Complaints by incorrectly stating Petitioner's causes of action and
claims which was fatal to the Petitioner.

9.

Attorney Hayes failed to follow Judge Covington’s instruction in
amending the Second and Third Complaints and failed to timely respond
to Respondent's Motion to Dismiss, resulting in it to being unopposed
thereby granting its dismissal and closing.

10.

Attorney Hayes added in the Third Amended Complaint, Doc. 33,
Exhibit 5-B, an Equal Pay claim although the statute of limitations had
lapsed, and the Second Amended Complaint Exhibit 5-A and Del E’toile
two Amended Complaints Exhibit 5, added the disability and lied that
Petitioner alleged the manager said “she does not like black people."
Petitioner never informed Del E’toile of that lie, he alleged that the
Board and the County is the same when he knew the precedent of
Hammer v. Hillsborough County.

Errors of Opposing Counsel
1.

Attorneys Todd and Zinober committed fraud when they confederated
with Del E’toile, and Hayes with their fraudulent machinations
ensuring Petitioner’s claims against Respondents are dismissed with
prejudice by adding a disability claim on her EEOC charge. Berman was
delayed in filing the needed court documents. The Second Amended
19

Complaint was dismissed because of the E.aual-Ea-wol-aim-a:mi~Bi5aMliIv~
—charge-add'eibon-Tluiy 23, 2018 hearing which proved fatal to Petitioner’s
cause.
2.

Petitioner reiterates that said representation was a lie, as Petitioner has
not sought treatment after she retired in 2014 for a disability, let alone,
a permanent disability as alleged in both Orders of dismissal with
prejudice, Orders Doc. 43 and 50, Exhibit 2. Kindly see attached email
correspondence from her attorney where Petitioner was specifically
instructed by counsel to allege that she saw a doctor in 2015, Exhibit 19.

3.

County Attorneys Todd and Zinober misrepresented Petitioner's claims
information which mislead Judge Foster who ruled against Petitioner.
Both attorneys failed to recognize that FMLA claims are not subject to
a 4-year statute of limitations and does not time-barr.

4.

Attorneys Todd, Zinober, Lehman and Hayes failed to inform Judge
Covington that Petitioner filed an FMLA claim and not an ADA
Disability claim which Judge Covington failing to verify the EEOC
charge.

5.

Todd, Zinober, Hayes, and Lehman, incorporated the disability claim
alleging Petitioner sought treatment in 2015. The Federal EEOC
Complaint Processing Procedures, page 3 Exhibit 29 states, “A
complainant may amend a formal complaint any time prior to the
dismissal of the complaint or the conclusion of the investigation.”
Nothing in the language of said directive, empowers anyone except
Petitioner to amend the complaint for her. Del E’toile agreed and
allowed the opposing attorneys to add the disability claim by amending
the Petitioner’s EEOC charge at the July 23, 2018 hearing, more than 3
years following dismissal which constituted outright fraud.

6.

Zinober alleged the FLMA claim on page 6 of Transcript, Doc. 49-1,
Exhibit 12, of Hearing dated July 23, 2018 and disability claim on Page
14. Todd likewise alleged disability on page 21. Both confederated and
conspired with Del E’toile who filed the FMLA and the Disability in the
two Amended Complaints and Demand for Jury Trial. Del E’toile alleged
that the Board and the County was the same, Exhibit 5, number 5 to
throw Petitioner's complaints in favor of the Board and the County filed
in the Middle District Court by Todd, Zinober, and Lehman alleging that
Petitioner disability claim that Todd and Zinober added to Petitioner’s
EEOC charge at the July 23, 2018 hearing was time-barred and the 4year statute of limitations had run, although they questioned the court
why the disability box was not marked on page 24 of said Transcript
Doc. 49*1, Exhibit 12 after alleging that Petitioner filed an FMLA claim
which is clearly shown by the record on Petitioner’s EEOC charge 5112014 01711, Exhibit 9.
20

7.

Petitioner never filed any disability c 1 aim-with-the-EE-OCririlTdlv see
-at-t-a-ebed-EEOG-charge. Attorneys Todd and Zinober alleged in their
documents prior to the hearing that Petitioner never filed a disability
claim and confirmed during the hearing that the disability box was not
marked on Petitioner's EEOC charge, Exhibit 9, Doc. 1-2, page 75-76.
Both started out at hearing with the FMLA claim which caused Judge
Foster to be so confused.

8.

Todd filed document Doc.1-2, page 77 to 84, page ID 87 to 94, Exhibit
10, alleging Petitioner never filed a disability claim and Zinober filed
Doc. 1-2, page 61 to 70, page ID 71 to 80, Exhibit 11, alleging that
Petitioner filed FMLA claim and not a disability claim, indicated on page
6 of the Transcript, Exhibitl2, documents filed prior to the July 23, 2018
hearing. Zinober alleges Petitioner filed a disability claim, Transcript
page 14, and Todd alleged a disability discrimination on page 21 to 22,
where there is no evidence on record suggesting that Petitioner has
presented her claims to the state before filing the disability claim. Todd
further alleges on page 22 of the Transcript line 17 and 18, Petitioner is
time barred from presenting the disability discrimination claim.
Petitioner reiterates she filed a FMLA claim.

9.

Petitioner never alleged disability as it cannot be both that disability
was the motivating factor as Del E'toile alleged on page 23 of the
Transcript when the disability box was "not" marked on the EEOC
charge Exhibit 9 and disability is not mentioned on the EEOC charge
form. Todd and Zinober alleged and admitted in Exhibit 10 and 11 prior
to the July 23, 2018 hearing that Petitioner never filed a disability as
the same was "not" marked. Zinober alleged Petitioner filed FMLA on
page 6 of Transcript Exhibit 12 and that the Board was separate from
the County. However, Hammer v. Hillsborough County proves that they
are the same. All committed fraud including Hayes by alleging lies while
under oath. Mr. Del E’toile confederated and conspired with Todd and
Zinober in adding the disability claim which both used together with
Lehman in the Middle District Court to ensure that Petitioner's
complaints against Respondents be dismissed with prejudice based on
fraud.

REASONS FOR THE ALLOWANCE OF THE WRIT

21

REVIEW IS WARRANTED BECAUSE BASISJEXLST-S-A-N-B-T-HERE~I'S'
.OP-RORT-UNH'-W-EeR^rHE"U.S. SUPREME COURT IN EXPANDING
EARLIER DECISIONS WHICH ESTABLISHES THE DOCTRINE OF
EQUITABLE TOLLING IS TO BE APPLIED LIBERALLY IN REGARD TO
PRO SE LITIGANTS AND PARTICULARY SO IN SECTION 1983 EQUAL
PAY ACT AND TITLE VII EMPLOYMENT DISCRIMINATION CLAIMS.
THE ALLOWANCE OF THE WRIT WILL PROVIDE GUIDANCE FOR THE
CIRCUITS ON THE ISSUE, IN PARTICULAR, THE ELEVENTH CIRCUIT,
WHICH ALTHOUGH HAS RECOGNIZED THE BASIC CONCEPT, BUT
NONETHELESS RELUCTANT TO FOLLOW THE TREND ESTABLISHED
BY THE U.S. COURT AND EVEN ITS OWN PRECEDENT, AS
DEMONSTRATED IN ITS DECISION IN THIS CASE, IN APPLYING THE
CONCEPT BROAD ENOUGH TO COVER PETITIONERS SITUATION.
THIS CASE PROVIDES OPPORTUNITY FOR THE U.S. SUPREME COURT
TO ADDRESS AND ENFORCE THE APPLICATION OF THE CONCEPT.

CONCLUSION

22

Certiorari is warranted to further define the nature__o£-the-expan-ded-scoT)e of
the 1 ‘Do.ctrane^f-E<a-ui-t7ahte^foifilTg’, specihcally within the context of cases involving
pro se parties in Title VII litigation, who exercised diligence but under a mistaken
belief as to the procedures and timeframes, in which reliance was bestowed upon
previously hired attorneys on perceived expertise and competency. Further, certiorari
is warranted to determine the extent to which Respondents’ discrimination on the
basis of gender, age, race, retaliation, equal pay, and FMLA claim, against Petitioner
relates to the denial of the latter’s benefits.
For the foregoing reasons, Petitioner Bouazizi respectfully requests this Court
issue a Writ of Certiorari to review the judgement of the Eleventh Circuit Court of
Appeals.

DATED this 26th day of August 2021

Respectfully submitted,

VJ
Petitioner Pro Se

Jai

3619 East Caracas Street, Tampa Florida 33610
Tel: (813) 205- 2687
E-Mail: momlIuv9@aol.com

No. 21-

23

